29
CERTIFICATE OF SERVICE
I, counsel for defendant-appellant William Todd Coontz and a member of the
Bar of this Court, certify that, on, a copy of the attached Petition for Writ of
Certoriari was filed electronically through the appellate CM/ECF system with the
Clerk of the Court. I further certify that I have emailed a copy of the Petition for
Writ of Certiorari to counsel for the United States in the Appeal to the Fourth Circuit,
Assistant United States Attorney Anthony J. Enright, 227 West Trade Street,
Carillon Building, Suite 1650, Charlotte, N.C. 28202, Tele 704-344-6222, email:
anthony.enright@usdoj.gov and that all parties required to be served have been
served.

Date: December 17, 2020

/s/
David G. Barger
Counsel for Appellant

ACTIVE 54282591v1

